DOE F 1325.8
  (08-93)
EFG (07-90)


United States Government                                                                  Department of Energy


memorandum
           DATE:     April 7, 2009
     REPLY TO
      ATTN OF:       IG-40
       SUBJECT:      Letter Report on “Department of Energy Funding of Tribal Colleges and Universities”
                     (INS-L-09-04, S09IS011)
               TO:   Acting Assistant Secretary for Environmental Management
                     Acting Director, Office of Economic Impact and Diversity

                     This is to inform you of the results of an Office of Inspector General inspection regarding
                     an allegation that the Department of Energy overstated its financial support to Tribal
                     Colleges and Universities for fiscal year (FY) 2007.

                     BACKGROUND

                     The Department of Energy is required to submit annual reports describing the financial
                     support it provides to minority serving institutions in each of three categories:
                     Historically Black Colleges and Universities, Hispanic-Serving Institutions, and Tribal
                     Colleges and Universities (TCUs). The reports are compiled for the Department by the
                     Office of Economic Impact and Diversity, based on input from departmental elements.
                     In the case of TCUs, the Office of Economic Impact and Diversity submits the report to
                     the Office of the White House Initiative on Tribal Colleges and Universities at the
                     Department of Education.

                     The Office of Inspector General received an allegation that the FY 2007 TCU report
                     contained a “gross unexplained error,” and the complainant believed that the data was
                     intentionally falsified. Specifically, the report showed an increase in TCU financial
                     support from $176,550 in FY 2006 to $5,203,886 in FY 2007 that the complainant did
                     not believe was supportable. As a result, we initiated an inspection to examine the facts
                     surrounding the allegation.

                     Our interest in this allegation was heightened by the attention the then proposed
                     American Recovery and Reinvestment Act focused on the importance of program
                     performance data reliability and transparency.

                     RESULTS OF INSPECTION

                     We found that the Department had, as alleged, made errors in reporting its TCU financial
                     support in FY 2007 and that a similar error was made in FY 2008. On behalf of the
                     Department, the Office of Economic Impact and Diversity reported total contributions of
                     $176,550 in FY 2006, $5,203,886 in FY 2007, and $5,531,957.04 in FY 2008. At our
                     request, the Office of Economic Impact and Diversity provided us the data supplied to it
                     by the individual departmental elements. We determined that the significant increase in
the amount was based on data provided by the Office of Environmental Management,
which reported total TCU support of $0 in FY 2006, $5,120,000 in FY 2007, and
$5,490,457.04 in FY 2008. We discussed the numbers with the responsible
Environmental Management officials, who said that, upon further examination, their
Office of Budget mistakenly included all funds sent to tribal governments in the reported
TCU funds. The Office of Environmental Management determined that it actually had
not provided any financial support to TCUs in FYs 2007 and 2008.

While our inspection substantiated that the Department’s TCU financial support was
grossly misstated, we found no evidence that the data was intentionally falsified. We
interviewed individuals from the Office of Environmental Management and the Office of
Economic Impact and Diversity. Economic Impact only saw itself as a conduit and
compiled Environmental Management’s data with the data provided by other program
offices without questioning the significant increase in the amount. Environmental
Management staff apparently misunderstood the data request and reported all tribal
funding versus only TCU funding.

As a result of our inspection, the Office of Environmental Management provided
corrected data to the Office of Economic Impact and Diversity for FY 2007 and FY 2008.
The Office of Economic Impact and Diversity subsequently corrected the Department’s
figures in its Minority Education Award Staging System and submitted revised FY 2007
and FY 2008 reports to the Office of the White House Initiative on Tribal Colleges and
Universities.

Since corrective actions have been taken, we are not making any formal
recommendations in this report. However, given the emphasis on accurate data as a
means of gauging program performance under the American Recovery and Reinvestment
Act, we concluded that greater attention to data reliability is necessary. As one step, we
suggest that if, in the future, the Office of Economic Impact and Diversity receives
significant variances in financial support data, it follow up with the applicable program
office to ensure the data is accurate.

This inspection was conducted in accordance with the “Quality Standards for
Inspections” issued by the President’s Council on Integrity and Efficiency. We
appreciate the cooperation we received from your offices during this inspection. If you
have any questions concerning this review, you may reach me at (202) 586-4109.




                                             Elise M. Ennis
                                             Assistant Inspector General for
                                              Inspections and Special Inquiries

cc:    Director, Office of Internal Review (CF-1.2)
